:::::: I I
H ■

mill

ex ^ _
No.

1

Supreme Court, U.S.
FILED

DEC 3 1 2020

2

IN THE

3

SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK

4

DARRYL L. WILLIAMS ©: Ex Relatione All Rights Reserved*

5

U.C.C. 671-207/ 1-308; U.C.C. 1-103

6

Loraye Blackeagle, Authorized Representative/Beneficiary *

7

Natural Person, In Propria Persona-

8

Not a Corporate Person or Entity, Misrepresented by Fraudulent*

9

Construct of ALL CAPITAL LETTERS *

))

>
)

10

C/O 1515 10th Avenue East

)

n

Palmetto, Floride Republic

))

12

Near [RFD 34221]

))

Plaintiff

13

))

Vs.

14

is

Social Security Administration:

)
)

16

Andrew Saul;

)>

17

Nancy A. Berryhill in her private capacity*

18

Dishonored Defendant

Received
19

MAV ? 0 2021
iye^°FcTotfRcTL5RsK

20

ON PETITION FOR A WRIT OF CERTIORARI TO

21

UNITED STATES DISTRICT COURT

22

MIDDLE DISTRICT OF FLORIDA

23

TAMPA DIVISION

24

PETITION FOR WRIT OF CERTIORARI

25

DARRYL L. WILLIAMS ©• Ex Relatione

26

Loraye Blackeagle, Beneficiary, Authorized Representative, Natural

27

Person, In Propria Persona-

28

C/O 1515 10th Avenue East

29

Palmetto, Floride Republic

30

Near [RFD 34221] Non-Domestic

31

[(941) 237-7151]

QUESTION(S) PRESENTED

32

33

1. Do I have a right to rescind my signature from a contract I signed

34

when he was 14 years old, date signed 06*17-1982? [Contracts

35

signed by minors are not legally enforceable making the contract

36

null and void].

37
38

39

2. Do I have a right to “acquire, possess, protect property, reputation,

and to pursue my own happiness”?
3. Do I have a right to “at all times, an inalienable and indefeasible

40

right to alter or abolish my form of government, in such manner

41

as I may deem expedient?”

42
43

4. Do I have a right to petition the government for a redress of
grievances?

44

5. Do I have a right to self-determination? By virtue of that right

45

can I freely determine my political status and freely pursue my

46

economic, social and cultural development?

47

6. Do I have a right to, for my own ends; freely dispose of my natural

48

wealth and resources without prejudice to any obligations arising

49

out of international economic co-operation, based upon the

!

50

principle of mutual benefit, and international law? [ In no case

51

may a people be deprived of its own means of subsistence]

52

7. Does Nancy A. Berryhill/ Social Security in her fiduciary job, have
a right to deprive me of my own means of subsistence?

53
54

8. Do Nancy A. Berryhill/ Social Security have an obligation to take

55

the necessary steps, in accordance with its constitutional

56

processes and with the provisions of the present Covenant, to

57

adopt such laws or other measures as may be necessary to give

58

effect to the rights recognized in the present Covenant?

59

9. Did Nancy A. Berryhill/ Social Security act under color of law

60

when she engaged in activities and performances aimed at the

61

destruction of my rights and freedoms recognized herein or at

62

their limitation to a greater extent than is provided for in the

63

present Covenant when she deprived me of my inalienable and

64

indefeasible right?

65

10.

Do Nancy A. Berryhill/ Social Security have the right or

66

authority to impair my inherent right to enjoy and utilize fully

67

and freely my natural wealth and resources?

68

Treaty of Peace and Friendship 1787

69

11. Does Nancy A. Berryhill/ Social Security have an obligation to set

70

the subject at liberty and the effect returned to the owner.

71

12. Can a district judge proceed over an appeal that he denied in

72

district court?

73

13. Has a judge ever overturned his own case in district court that’s

74

being appealed?

75

14. If I lose this case, who keeps my money (Federal Reserve Notes)?

76
77
78

79

80

8i
82

LIST OF PARTIES
• All parties appear in the caption of the case on the cover
page.
RELATED CASES
WILLIAMS ©V. Social Security Administration- Andrew Saul!
Nancy A. Berryhill in her private capacity
Case Number- 8;20'cv574'T-30CPT The united States District Court

83

for the Middle District of East Floride Territory

84

Tampa Division Judgment entered October 5, 2020

85

WILLIAMS© V. Social Security Administration- Andrew Saul;

86

Nancy A. Berryhill in her private capacity

87

Case Number- 8-20*cv-574-T_30CPT The united States District Court

88

for the Middle District Court of Appeals East Floride Territory

89

Tampa Division Judgment entered October 5th, 2020.

TABLE OF CONTENTS

90
91

OPINIONS BELOW

1

92

JURISDICTION

1

93

1

95

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED................................................................... ....
STATEMENT OF THE CASE.... ......................................

96

REASONS FOR GRANTING THE WRIT

38

97

CONCLUSION

40

94

98

99

INDEX TO APPENDICES
APPENDIX (A) - Decision of U.S. District Court Middle District of

100

Florida of Appeals. Filed 10/05/2020

101

APPENDIX (B) - Decision of United States District Court Middle

102

District of Florida Tampa Division. Filed 06/01/2020

103

APPENDIX (C) - Decision of United States District Court Middle
District of Florida Tampa Division. Filed 04/30/2020

104
105
106

APPENDIX (D) - Decision of United States District Court Middle
District of Florida Tampa Division. Filed 04/15/2020

16

TABLE OF AUTHORITIES CITED

107
108

CASES

PAGE NUMBER

109
110
111

Miranda v. Arizona 384 US 436, 125-

112
113
114

Miller v. Kansas 230 F 2nd 486, 489

115
116
117

Thompson v Smith 154 SE 583

118
119
120
121
122
123
124
125
126
127
128
129

3" Affidavit of Objection to
the “REPORT AND RECOMMENDATION” With
THE MOORISH NATIONAL REPUBLIC

3- Affidavit of Objection to
the “REPORT AND RECOMMENDATION” With
THE MOORISH NATIONAL REPUBLIC

ASIS v US 568 F2d, 284

3- Affidavit of Objection to
the “REPORT AND RECOMMENDATION” With
THE MOORISH NATIONAL REPUBLIC

3' Affidavit of Objection to
the “REPORT AND RECOMMENDATION” With
THE MOORISH NATIONAL REPUBLIC

Burns v Sup Ct. SF, 140 Cal 1

4- Affidavit of Objection to
the “REPORT AND RECOMMENDATION” With
THE MOORISH NATIONAL REPUBLIC

Schware v. State of Examiners, 353 U.S. 238,239. 4- Affidavit of Objection
to the “REPORT AND RECOMMENDATION” With
THE MOORISH NATIONAL REPUBLIC

Sims V. Ahrens, 271 S.W. 720 (1925)

4" Affidavit of Objection to
the “REPORT AND RECOMMENDATION” With
THE MOORISH NATIONAL REPUBLIC

Stone v Powell 428 US. 465,
65 CT 3037 49 L. Ed. 2d 1067

4- Notice of Appeal

132

Rubinstien v. Collars 20 F.3d 160, 1990.

7- Notice of Appeal

133

Gibbons v. Ogen 9 wheat l; 5 cond. Rep. 562.

8- Notice of Appeal

130
131

134
135

M llvaine v. Coxe s Lessee, 8U.S. 209? 2 L.E. 598(1808). 9* Grievances for

136

Yick Wo V. Hopkins, 118 U.S. 356, 6 S. Ct. 1064(1866). 9‘ Grievances for

violation of Constitutional Rights

violation of Constitutional Rights

137
138
139

License tax cases, 72 U.S.462

1- ACTUAL an CONSTRUCTIVE LEGAL
NOTICE U.C.C...: Alongside IRS Form 56

140
141

Yick Wo V. Hopkins, 118 U.S. 356, 6 S. Ct. 1064(1866)

142
143

Rubinstien v. Collars 20 F.3d 160, 1990

144

Jones v. Jones, 188 Mo.App. 220, 175 S.W. 227, 229; Exparte Gladhill,
8 Mete., Mass., 171, per Shaw, C. J. See, also, Ledwith v. Rosalsky,
11- Affidavit for Rebuttal
244 N.Y. 406, 155 N.E. 688, 689.
to the Court’s Presumptions; and “Report and Recommendation

145
146
147

1- ACTUAL an
CONSTRUCTIVE LEGAL NOTICE U.C.C...: Alongside IRS Form 56
9' Affidavit for Rebuttal to
the Court’s Presumptions; and “Report and Recommendation”

STATUTES AND RULES

148
149
150

Social Security Act section 1101(a) (2)

151

42 U.S.C. 1301(a) (2)

1- Legal Notice of Resignation for Social Security

153

20 CFR 422 .104

1- Legal Notice of Resignation for Social Security

154

20 CFR 422.110(a)

1- Legal Notice of Resignation for Social Security

155

20 CFR 442.103(d)

1- Legal Notice of Resignation for Social Security

156

8 U.S.C. 1401

1- Legal Notice of Resignation for Social Security

157

26 U.S.C. 3121(e)

1- Legal Notice of Resignation for Social Security

158

26 C.F.R. l.l-l(c)

1- Legal Notice of Resignation for Social Security

159

18 U.S.C. 1512

1- Legal Notice of Resignation for Social Security

160

26 C.F.R. 301.6109-l(l)(i)

2 - Legal Notice of Resignation for Social Security

161

26 C.F.R. 1.871-l(b)

2- Legal Notice of Resignation for Social Security

1- Legal Notice of Resignation
for Social Security

152

162

26 C.F.R. 301.6109-l(g)(l)(i)

2- Legal Notice of Resignation for Social Security

163

26 C.F.R. 1.871-1(6)1(0

2- Legal Notice of Resignation for Social Security

164

28 U.S.C. 1332(d)

2* Legal Notice of Resignation for Social Security

165

4 U.S.C. 110(d)

2- Legal Notice of Resignation for Social Security

166

26 U.S.C. 770l(a)(l0)

2- Legal Notice of Resignation for Social Security

167

26 U.S.C. 770l(a)(3l)

2- Legal Notice of Resignation for Social Security

168

28 U.S.C. 1332

2- Legal Notice of Resignation for Social Security

169

FRCP 8(b) (6)

2- Legal Notice of Resignation for Social Security

170

26 U.S.C. 6065

2- Legal Notice of Resignation for Social Security

171

5 U.S.C. 556(d)

2- Legal Notice of Resignation for Social Security

172

26 U.S.C. 7491

2- Legal Notice of Resignation for Social Security

173

(IRM) section 4.10.7.2.8

2* Legal Notice of Resignation for Social Security

174

POMS section GN 00206.000

2- Legal Notice of Resignation for Social Security

175
176

Fed. R. Civ. P. 17(b)

1-Form 56 Notice Concerning Fiduciary
Relationship

177
178

26 U.S.C. 7701(a)(9)

1-Form 56 Notice Concerning Fiduciary
Relationship

179
180

U.C.C. 1-201(19)

181
182

U.C.C. 1-203

1- ACTUAL an CONSTRUCTIVE LEGAL
NOTICE U.C.C...: Alongside IRS Form 56

183
184

28 U.S.C. 3002(15)(A)

1- ACTUAL an CONSTRUCTIVE LEGAL
NOTICE U.C.C...: Alongside IRS Form 56

1- ACTUAL an CONSTRUCTIVE
LEGAL NOTICE U.C.C...: Alongside IRS Form 56

185
186

U.C.C. 9-307(h)

1- ACTUAL an CONSTRUCTIVE LEGAL
NOTICE U.C.C...: Alongside IRS Form 56

187
188

U.S.C.A. Const. Art: 1:8:17-18

1- ACTUAL an CONSTRUCTIVE LEGAL
NOTICE U.C.C...: Alongside IRS Form 56

189
190

8U.S.C. 1101(A)(14)

1- ACTUAL an CONSTRUCTIVE LEGAL
NOTICE U.C.C...: Alongside IRS Form 56

191
192

28 U.S.C. 1603(B)(3)

1- ACTUAL an CONSTRUCTIVE LEGAL
NOTICE U.C.C...: Alongside IRS Form 56

193
194

26 U.S.C. 7701(A)(26)

1- ACTUAL an CONSTRUCTIVE LEGAL
NOTICE U.C.C...: Alongside IRS Form 56

195
196

Fed. R. Civ. P. 10(c)

1- ACTUAL an CONSTRUCTIVE LEGAL
NOTICE U.C.C...: Alongside IRS Form 56

197
198

11U.S.C. 101(5)

1- ACTUAL an CONSTRUCTIVE LEGAL
NOTICE U.C.C...: Alongside IRS Form 56

199

18 U.S.C. 911

1- Form SS*5

200

18 U.S.C. 912

1- Form SS"5

201

House Joint Resolution 25
“Fair Tax Act of 2017”

202
203
204
205
206
207
208

209
210
211

U.C.C. 3-603(b)
5 Co. 116
18 U.S. Code § 242
42 U.S.C. §1983

15- Grievances for violation of Constitutional
Rights,' International
Covenant
on Civil and Political Right(s) and Treaty Law
1- Affidavit for Rebuttal to the Court’s
Presumptions: and “Report and Recommendation

10- Affidavit for Rebuttal to the Court’s
Court’s Presumptions; and “Report and Recommendation”
5- Affidavit for Rebuttal to the Court’s
Presumptions! and “Report and Recommendation”
1-

Grievances for

212

violation of Constitutional Rights; International Covenant on Civil and Political Right(s)

213

and Treaty Law

214

Other

215

Article 1 section 8 clauses 9 and Article III of the united States of
American’s Constitution. [1789]
1- Affidavit for Rebuttal to the Court’s

216
217
218
219

Presumptions; and “Report and Recommendation”

Registration Statement Pursuant to the Foreign Agents Registration
Act of 1938.

1' Affidavit for Rebuttal to the Court’s
Presumptions; and “Report and Recommendation”

220

221
222
223
224
225
226
227
228

Oath or affirmation of office on the public record to support and
defend the Constitution for America Republic
1- Affidavit for Rebuttal to the Court’s
Presumptions; and “Report and Recommendation”

Article 1 section 10(U.S.A.C.)

3- Affidavit for Rebuttal to the Court’s
Presumptions; and “Report and Recommendation”

Article VI

3‘ Affidavit for Rebuttal to the Court’sPresumptions; and “Report and Recommendation”

230

U.S. Reservations, Declarations, and Understandings
International Covenant on Civil and Political Rights l- Affidavit for RIGHT

231

TO DEFEND MY RIGHTS

229

232
233
234
235
236
237
238

239

138 Cong. Rec. S4781-01

Florida Jurisprudence (Trust Law) §56

4- Affidavit for Rebuttal to the
Court’s
Presumptions; and “Report and Recommendation”

Article 4, Section 1

9- Affidavit for Rebuttal to the
Court’s Presumptions; and “Report and Recommendation”

Hob. 343

9- Affidavit for Rebuttal to the Court’s
Presumptions; and “Report and Recommendation”

Maxims of Law

10- Affidavit for Rebuttal to the Court’s
Presumptions; and “Report and Recommendation”

242
243
244

8- Affidavit for Rebuttal to the Court’s
Presumptions; and “Report and Recommendation”

Black’s Law Dictionary, 6th edition

240

241

4- Affidavit for Rebuttal to the Court’s
Presumptions; and “Report and Recommendation”

245

Dig. 1, 2, l; 10 Co. 49.

246
247
248

Florida Jurisprudence Trusts- §116

1- WRIT TO PROCEED IN
DISTRICT COURT WITHOUT FEES OR COST)

Amendment XIV, Section 1

251
252
253
254
255

Amendment V

256
257
258

Amendment IX

259

6- Notice of Appeal

Federal Reserve Notes - 12 U.S.C. § 411

249
250

10- Affidavit for Rebuttal to the Court’s
Presumptions; and “Report and Recommendation”

1- WRIT TO PROCEED IN DISTRICT COURT
WITHOUT FEES OR COST)

Affidavit of Objection to the “REPORT
AND RECOMMENDATION” With
THE MOORISH NATIONAL REPUBLIC
MOORISH DIVINE AND NATIONAL MOVEMENT OF THE WORLD
2-

2>3" Affidavit of Objection to the “REPORT
AND RECOMMENDATION” With
THE MOORISH NATIONAL REPUBLIC
MOORISH DIVINE AND NATIONAL MOVEMENT OF THE WORLD

260
261
262
263

K.C. Davis, ADMIN. LAW, Ch. 1 (CTP. West’s 1965 Ed. 3- Affidavit of

264
265

Constitution of Florida

266
267
268
269
270
271

Objection to the “REPORT AND RECOMMENDATION” With
THE MOORISH NATIONAL REPUBLIC
MOORISH DIVINE AND NATIONAL MOVEMENT OF THE WORLD
3* Grievances for violation of Constitutional
Rights; International Covenant on Civil and Political Right(s) and Treaty Law

DARRYL L. WILLIAMS ©• Ex Relatione All Rights Reserved
U.C.C. 671-207/1-308; U.C.C. 1-103
Loraye Blackeagle, Authorized Representative; Beneficiary,
Natural Person, In Propria PersonaNot a Corporate Person or Entity,
Misrepresented by Fraudulent Construct of ALL CAPITAL LETTERS

272
273
274
275

276

Loraye Blackeagle, Authorized Representative; Beneficiary for DARRYL
L. WTTJJAMS ©D/B/A- Under Threat and Coercion iDltfZPYL tOHMEAWS

(Signature)
Date: /T?*^ J</ 'Zo’Zi

277

No.

278

IN THE

279

SUPREME COURT OF THE UNITED STATES

280

(DARRYL L. WILLIAMS ©• Ex Relatione All Rights Reserved-

281

U.C.C. 671-207/1-308; U.C.C. 1-103

5

282

Loraye Blackeagle, Authorized Representative,

283

Natural Person, In Propria Persona) — PETITIONER

284

VS.

285

Social Security Administration-

286

Andrew Saul;

287

Nancy A. Berryhill in her private capacity

288

289

Dishonored Defendant— RESPONDENT(S)
PROOF OF SERVICE

290

I Loraye Blackeagle, Authorized Representative/ Beneficiary have

29i

served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA

292

PAUPERIS Affidavit of Financial Statement in Support of Writ for

293

Leave to Proceed without Payment (Exercise of Constitution — Secured

294

Right) and PETITION FOR A WRIT OF CERTIORARI on each party to

295

the above proceeding or that party’s counsel, and on every other person

296

required to be served, by depositing an envelope containing the above

297

documents in the United States mail properly addressed to each of them

298

and with first-class postage prepaid, or by delivery to a third-party

299

commercial carrier for delivery within 3 calendar days.

300

The names and addresses of those served are as follows-

301

Andrew Saul Office of the Commissioner

302

Social Security Administration 6401 Security Blvd.

303

Baltimore, Maryland [21235-0001] 1*800-772-1213 Official capacity

304

Nancy A. Berryhill 6401 Security Blvd. Baltimore, Maryland

305

[21235-0001] Individual capacity

306

I Declare under penalty of perjury under the laws of the united States

307

of America that the foregoing is true and correct.

308

Executed on May 14, 2021

309
310
311
312
313
314

315
316
317

DARRYL L. WILLIAMS ©• Ex Relatione All Rights Reserved
U.C.C. 671-207/1-308; U.C.C. 1-103
Loraye Blackeagle, Authorized Representative; Beneficiary,
Natural Person, In Propria Persona^
Not a Corporate Person or Entity,
Misrepresented by Fraudulent Construct of ALL CAPITAL LETTERS
Loraye Blackeagle, Authorized Representative; Beneficiary for DARRYL
L. WILLIAMS ©D/B/A- Under Threat and Coercion PfrZ&t/t- lifcUZ&MS
(Signature)

;

1

\

I

l

AT THE

2

SUPREME COURT OF THE UNITED STATES

3

FOR WRIT OF CERTIORARI

4

OPINIONS BELOW
For cases from federal courts:

5

6

1.

The opinion of the United States court of appeals is unpublished.

7

2.

The opinion of the United States district court is unpublished.

8

JURISDICTION

9

For cases from federal courts:

10

The date on which the United States Court of Appeals decided my case was

11

October 5th, 2020

12
13

The jurisdiction of this Court is invoked under Article III Section 1 The judicial
power of the United States, shall be vested in one Supreme Court... Section 2, The

14

judicial power shall extend to all cases, in law and equity, arising under this

is

Constitution, the laws of the United States, and treaties made, or which shall be

16

made, under their authority;—to all cases affecting ambassadors, other public

17

ministers and consuls;—to all cases of admiralty and maritime jurisdiction;—to

18

controversies to which the United States shall be a party... [28 U. S. C. § 1254{1)].

19

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

20
21

1.
Article VI "All debts contracted and engagements entered into, before the
adoption of this Constitution, shall be as valid against the United States under this

22

Constitution, as under the Confederation. This Constitution, and the laws of the

23

United States which shall be made in pursuance thereof; and all treaties made, or

24

which shall be made, under the authority of the United States, shall be the

25
26

supreme law of the land; and the judges in every state shall be bound thereby,
anything in the Constitution or laws of any State to the contrary notwithstanding.

Page 1 of 40

27

2.

Article 1, Section X "All debts shall be payable in gold or silver coin"

28

3.

Amendment V-" No Person shall be deprived of due process of law"

29

4.

Amendment IX

30

shall not be construed to deny or disparage others retained by the people"

31

5.

The enumeration in the Constitution, of certain rights,

32

Miranda v. Arizona 384 US 436,125- "Where rights secured by the
Constitution are involved, there can be no rule-making or legislation, which would

33

abrogate them."

34

6.

35

involved in enforcement of mere statutes (civil or criminal in nature and

36

otherwise), act as mere "clerks" of the involved agency..."

37

7.

38

Constitutional Rights cannot be converted into a crime."

39

8.

40

subsequent amendments to the present date, the judge of the municipal court is

41

acting as an administrative officer and not in a judicial capacity; courts in

42

administering or enforcing statues do not act judicially, but merely ministerially"

43

9.

44

the governing principle of administrative law provides that courts are prohibited

45

from substituting their evidence, testimony, record, arguments, and rationale for

46
47

that of the agency. Additionally, courts are prohibited from substituting their
judgment for that of the agency. Courts in administrative issues are prohibited

48

from even listening to or hearing arguments, presentations, or rational"

49

10.

50
51

receive grants of judicial power from the legislature, their acts in attempting to
exercises such powers are necessarily nullities."

52
53

11.
Schware v. State of Examiners, 353 U.S. 238,239;- "The practice of law
cannot be licensed by any state/ state"

K.C. Davis, ADMIN. LAW, Ch. 1 (CTP. West's 1965 Ed- "...judges who become

Miller v. Kansas 230 F 2nd 486,489:- "The claim and exercise of

Thompson v Smith 154 SE 583- "When acting to enforce a statue and its

ASIS v US 568 F2d, 284-" A judge ceases to sit as a judicial officer because

Burns v Sup Ct. SF, 140 Cal l-"Ministerial officers are incompetent to

Page 2 of 40

Sims V. Ahrens, 271 S.W. 720 (1925)- "The practice of the Law is an

54

12.

55

occupation of Common Rights!"

56

13.

57
58

or promises performance or assents to performance in a manner demanded or
offered by the other party does not thereby prejudice the rights reserved. Such

59

words as "without prejudice," "under protest," or the like are sufficient".

60

14.

61

promises performance or assents to performance in a manner demanded or

62

offered by the other party does not thereby prejudice the rights reserved.

63

15.

64

construed and applied to promote its underlying purposes and policies, which are:

65

(1) to simplify, clarify, and modernize the law governing commercial transactions;

66

(2) to permit the continued expansion of commercial practices through custom,

67

usage, and agreement of the parties; and (3) to make uniform the law among the

68

various jurisdictions, (b) Unless displaced by the particular provisions of the

69

Uniform Commercial Code, the principles of law and equity, including the law

70

merchant and the law relative to capacity to contract...

71

16.

Black's Law Dictionary sixth edition- "must:...

72

17.

Article 1 section 8 clauses 9- "To constitute tribunals inferior to the

73

Supreme Court".

74
75

18.
Article III- "The judicial power of the United States, shall be vested in one
Supreme Court, and in such inferior courts as the Congress may from time to time

76

ordain and establish. The judges, both of the supreme and inferior courts, shall

77

hold their offices during good behaviour... Section 2- "...In all cases affecting

78
79

ambassadors, other public ministers and consuls, and those in which a state shall
be party, the Supreme Court shall have original jurisdiction. In all the other cases

so

before mentioned, the Supreme Court shall have appellate jurisdiction, both as to

si

law and fact, with such exceptions...

U.C.C 671-207- "A party who, with explicit reservation of rights, performs

U.C.C. 1-308- "A party that with explicit reservation of rights performs or

U.C.C.1-103- "(a) The Uniform Commercial Code must be liberally

Page 3 of 40

82
83
84

19.
Foreign Agents Registration Act of 1938 OMB No. 1124-0001- ". Privacy Act
Statement. The filing of this document is required for the Foreign Agents
Registration Act of 1938, as amended,

85

22 U.S.C. § 611 et seq., for the purposes of registration under the Act and public

86

disclosure. Provision of the information requested is mandatory, and failure to

87
88

provide the information is subject to the penalty and enforcement provisions
established in Section 8 of the Act.

89
90

20.
Stone v Powell 428 US. 465, 65 CT 3037 49 L. Ed. 2d 1067- "that state
courts like federal courts have a Constitutional Obligation to safeguard personal

91

liberties and uphold federal law to protect people from encroachment and

92

molestation of their preexisting Rights".

93
94
95
96

21. 28 U.S. Code § 3002- "United States: means(A) a Federal corporation;
(B) an agency, department, commission, board, or other entity of the United
States; or...

97

22. The U.S. Constitution 1791- "Amendment I. ...and to petition the
Government for a redress of grievances

98

too

23. Florida Jurisprudence Trusts- §116- "General rules applicable to pleadings
control in suits involving trusts or trustees ultimate facts on which the claim to

101
102

relief is grounded must be alleged. Although a complaint is not necessarily subject
to motion to dismiss merely because it does not present a model of good

103

pleading, the necessary elements of the cause of action must be set forth. Where

104
105
106

the validity of the instrument sought to be enforced depends on whether the
signatory had authority to sign, the existence of such authority must be alleged
and proved..."

99

107
108
109

no
in

24. Black's Law Dictionary, sixth edition- "Sovereign: A person, body, or state in
which independent and supreme authority is vested; a chief ruler with supreme
power; a king or other ruler in a monarchy".
25. Black's Law Dictionary, sixth edition- "Citizen: One who, under the
Constitution and laws of the united States, or of a particular state, is a member of
Page 4 of40

112

the political community, owing allegiance and being entitled to the enjoyment of

113

full civil rights".

114

116

26. Rubinstien v. Collars 20 F.3d 160,1990 "Knowingly failure to disclose
material information necessary to prevent statements from being misleading or
making representation despite knowledge that it has no reasonable basis in fact,

117

is actionable as fraud under the law.

115

118

27. Hob. 343.- "A twisting of language is unworthy of a judge".

119

28. Gibbons v. Ogden 9 wheat 1; 5 cond. Rep. 562- "Persons are not the subject

120

of commerce, and cannot be import goods, they do not fall within the meaning

121

found upon the constitution, of all power given to congress to regulate

122

commerce, and the prohibition of the states for imposing a duty on imported

123

goods".

124
125
126
127

29. Maxims of Law from Bouvier's Dictionary of Law- "He ought not to be heard
who advances a proposition contrary to the rules of law".
30. Maxims of Law from Bouvier's Dictionary of Law- "The act of the law does
no one an injury".

128

31. H. R. 25 Fair Tax Act of 2017-"pg. 10 Notice of Appeal"

129

32. UCC 3-603 (b) - If tender of payment of an obligation to pay an instrument is

130

made to a person entitled to enforce the instrument and the tender is refused,

131

there is discharge...

132

33. 26 U.S.C. 7701(a)(31)- The term "foreign estate" means an estate the

133

income of which, from sources without the United States which is not effectively

134

connected with the conduct of a trade or business within the United States, is not

135

includible in gross income under subtitle A.

136

137

34. Florida Jurisprudence (Trust Law §56) - The presumption that a trust was
intended in such circumstances is however rebutted by proof of a contrary

138

intention of the person from whom the consideration comes...

139

35. International Covenant on Civil and Political Rights Article 2Page 5 of 40

140

(1. Each State Party to the present Covenant undertakes to respect and to ensure

141

to all individuals within its territory and subject to its jurisdiction the rights

142
143
144

recognized in the present Covenant, without distinction of any kind, such as race,
color, sex, language, religion, political or other opinion, national or social origin,
property, birth or other status.

145

2. Where not already provided for by existing legislative or other measures, each

146

State Party to the present Covenant undertakes to take the necessary steps, in

147

accordance with its constitutional processes and with the provisions of the

148

present Covenant, to adopt such laws or other measures as may be necessary to

149

give effect to the rights recognized in the present Covenant.

iso

3. Each State Party to the present Covenant undertakes:

151
152
153
154
155
156
157
158
159

(a) To ensure that any person whose rights or freedoms as herein recognized are
violated shall have an effective remedy, notwithstanding that the violation has
been committed by persons acting in an official capacity;
(b) To ensure that any person claiming such a remedy shall have his right thereto
determined by competent judicial, administrative or legislative authorities, or by
any other competent authority provided for by the legal system of the State, and
to develop the possibilities of judicial remedy;
(c) To ensure that the competent authorities shall enforce such remedies when
granted).

160

36. International Covenant on Civil and Political Rights Article 5-

161

1. Nothing in the present Covenant may be interpreted as implying for any State,

162

group or person any right to engage in any activity or perform any act aimed at

163
164

the destruction of any of the rights and freedoms recognized herein or at their
limitation to a greater extent than is provided for in the present Covenant.

165

2. There shall be no restriction upon or derogation from any of the fundamental

166

human rights recognized or existing in any State Party to the present Covenant
pursuant to law, conventions, regulations or custom on the pretext that the

167
168
169
170

present Covenant does not recognize such rights or that it recognizes them to a
lesser extent.
37. International Covenant on Civil and Political Rights Article 47Page 6 of 40

171

Nothing in the present Covenant shall be interpreted as impairing the inherent

172

right of all peoples to enjoy and utilize fully and freely their natural wealth and

173

resources.

174

38. Treaty of Peace and Friendship 1787 Article 3- If either of the Parties shall

175

be at War with any Nation whatever and take a Prize belonging to that Nation,

176

and there shall be found on board Subjects or Effects belonging to [one] of the

177

Parties, the Subjects shall be set at Liberty and the Effects returned to the

178

Owners.

179

39. Color of Law.

180

40. American Constitution Article 4 Sections 1-

181

41. Maxims of Commercial Law-

182
183
184
185
186
187
188
189
190
191
192
193

A work man is worthy of his hire. It is against equity for a freeman not to
have the free disposal of their own property.
All are equal under the law.
Truth is sovereign
Truth is expressed in the form of and affidavit.
An unrebutted affidavit becomes as truth in commerce.
An unrebutted Affidavit becomes the judgement in commerce.
Sacrifice is the measure of credibility.
A lien or claim can only be satisfied only through rebuttal by affidavit, point
by point, resolution by jury; or payment.
Whoever pays by mistake what he does not owe, may recover it back; but
he who pays, knowing he owes nothing; is presumed to give.

194

The principal part of everything is the beginning. Dig. 1, 2,1; 10 Co. 49.

195

A concealed fault is equal to a deceit.

196

The power which is derived cannot be greater than that from which it is

197
198

derived.
Equity regards the beneficiary as the true owner

Page 7 of 40

199

42. Jones v. Jones, 188 Mo.App. 220,175 S.W. 227, 229- "court of record" is a

200

judicial tribunal having attributes and exercising functions independently of the

201

person of the magistrate designated generally to hold it, and proceeding
according to the course of common law, its acts and proceedings being enrolled
fora perpetual memorial.

202
203

205

43. 42 U.S.C. § 1983- Every person who, under color of any statute, ordinance,
regulation, custom, or usage, of any State or Territory or the District of Columbia,

206

subjects, or causes to be subjected, any citizen of the United States or other

207

person within the jurisdiction thereof to the deprivation of any rights, privileges,

208

or immunities secured by the Constitution and laws, shall be liable to the party

209

injured in an action at law, suit in equity, or other proper proceeding for redress...

204

44. International Covenant on Civil and Political Rights 138

210

211

Cong. Rec. S4781-01-( II. The Senate's advice and consent is subject to the

212
213

following understandings, which shall apply to the obligations of the United States
under this Covenant:

214

... (5) That the United States understands that this Covenant shall be implemented

215

by the Federal Government to the extent that it exercises legislative and judicial

216

jurisdiction over the matters covered therein, and otherwise by the state and

217

local governments; to the extent that state and local governments exercise

218
219

jurisdiction over such matters, the Federal Government shall take measures
appropriate to the Federal system to the end that the competent authorities of

220
221

the state or local governments may take appropriate measures for the fulfillment
of the Covenant.

222

III. The Senate's advice and consent is subject to the following declarations:

223

(1)

224

of the Covenant [i.e., all of the substantive provisions] are not self-executing....

225

45. Article 1. -l.AII peoples have the right of self-determination. By virtue of

226
227

That the United States declares that the provisions of Articles 1 through 27

that right they freely determine their political status and freely pursue their
economic, social and cultural development.

Page 8 of40

228

2. All peoples may, for their own ends, freely dispose of their natural wealth and

229

resources without prejudice to any obligations arising out of international

230

economic co-operation, based upon the principle of mutual benefit, and

231

international law. In no case may a people be deprived of its own means of

232

subsistence.

233

46. Article 2- Where not already provided for by existing legislative or other

234

measures, each State Party to the present Covenant undertakes to take the

235

necessary steps, in accordance with its constitutional processes and with the

236

provisions of the present Covenant, to adopt such laws or other measures as may

237

be necessary to give effect to the rights recognized in the present Covenant.

238

47. Article 5- Nothing in the present Covenant may be interpreted as implying

239

for any State, group or person any right to engage in any activity or perform any

240

act aimed at the destruction of any of the rights and freedoms recognized herein

241

or at their limitation to a greater extent than is provided for in the present

242

Covenant.

243

48. Article 47- Nothing in the present Covenant shall be interpreted as

244

impairing the inherent right of all peoples to enjoy and utilize fully and freely their

245

natural wealth and resources.

246

49. Constitution of Florida; Article 1 Section 2- That all political power is

247

inherent in the people, and all free governments are founded on their authority,

248

and established for their benefit; and, therefore, they have, at all times, an

249

unalienable and indefeasible right to alter or abolish their Form of government, in

250

such manner as they may deem expedient.

251

252
253

50. Void Contract signed by a minor - Contracts signed by a minor are not
legally enforceable.

51.

Social Security Act section 1101(a) (2)- The term "United States" when

254

used in a geographical sense means, except where otherwise provided, the

255

States.

Page 9 of 40

256

257

52.

42 U.S.C. 1301(a) (2)- The term "United States" when used in a

geographical sense means, except where otherwise provided, the States.

258

53.

20 C.F.R. 422.104- A United States citizen

259

54.

42 U.S.C. 666- Procedures requiring that the social security number of...

260

55.

20 C.F.R. 422.110(a)- If you wish to change the name or other personal

261

identifying information you previously submitted in connection with an

262

application for a Social Security number card, you must complete a prescribed

263

application, except as provided in paragraph (b) of this section. You must prove
your identity, and you may be required to provide other evidence.

264

266

56. S.S.A POMS §GN 00206.005- Requirements for Withdrawal (WD) of a
Benefit Application.

267

The beneficiary who requests a WD of his or her benefit application must repay all

268

benefits he or she received, before we approve the withdrawal request. This
includes Medicare payments (i.e., Hospital Insurance (HI) expenses paid by CMS,

265

269
270

271
272

and Supplementary Medical Insurance (SMI) premiums withheld by SSA) and
voluntary tax withholding (VTW) for closed tax years...
57.1.R.S. Form 56- removes me formally, legally, and officially from liability as

273

the trustee of the trust and necessitates that your records respect said

274

correspondingly to ensure that I do not receive any more notices or statements,

275

or become the object of a lawful IRS collections directed at the Social Security
Trust and its trustee.

276
277

58. 20 CFR 442.103(d)- A person who is assigned a social security number will

278

receive a social security number card from SSA within a reasonable time after the

279
280

number has been assigned. Social security number cards are the property of SSA
and must be returned upon request.

281

59. 8 U.S.C. 1401(a)- a person born in the United States and subject to the
jurisdiction thereof...

282
283

60. 26 U.S.C. 3121(e)- State, United States, and citizen

Page 10 of 40

284

(l)State- The term "State" includes the District of Columbia, the Commonwealth

285
286
287

of Puerto Rico, the Virgin Islands, Guam, and American Samoa.
(2)United States- The term "United States" when used in a geographical sense
includes the Commonwealth of Puerto Rico, the Virgin Islands, Guam, and

288

American Samoa.

289

290
291

61. 26 C.F.R. 1.1—1(c)— Who is a citizen. Every person born or naturalized in the
United States and subject to its jurisdiction is a citizen.
62. 18 U.S.C. 1512- Whoever corruptly—(l)alters, destroys, mutilates, or

292

conceals a record, document, or other object, or attempts to do so, with the

293

intent to impair the object's integrity or availability for use in an official

294

proceeding; or...

295

63. 26.C.F.R. 301.6109-1(1) (i)- here are several types of taxpayer identifying

296

numbers that include the following: social security numbers, Internal Revenue

297

Service (IRS) individual taxpayer identification numbers, IRS adoption taxpayer

298
299

identification numbers, and employer identification numbers. Social security
numbers take the form 000-00-0000. IRS individual taxpayer identification

300

numbers and IRS adoption taxpayer identification numbers also take the form

301

000-00-0000 but include a specific number or numbers designated by the IRS.

302

Employer identification numbers take the form 00-0000000.

303

64. 26 C.F.R. 1.871-1 (b)(l)(i)- Nonresident alien individuals who at no time

304

during the taxable year are engaged in a trade or business in the United States.

305

65. 26 C.F.R. 301.6109-l(g)(l)(i)- A social security number is generally

306
307

identified in the records and database of the Internal Revenue Service as a
number belonging to a U.S. citizen or resident alien individual. A person may

308

establish a different status for the number by providing proof of foreign status

309
310

with the Internal Revenue Service under such procedures as the Internal Revenue
Service shall prescribe, including the use of a form as the Internal Revenue Service

311

may specify. Upon accepting an individual as a nonresident alien individual, the

312

Internal Revenue Service will assign this status to the individual's social security

313

number.
Page 11 of 40

314

66. 28 U.S.C. 1332(d)- The word "States", as used in this section, includes the

315

Territories, the District of Columbia, and the Commonwealth of Puerto Rico.

316
317

67. 4 U.S.C. 110(d)- The term "State" includes any Territory or possession of
the United States.

318

68. 26 U.S.C. 7701(a)(10)- The term "State" shall be construed to include the

319
320

District of Columbia, where such construction is necessary to carry out provisions
of this title.

321

69. 28 U.S.C. 1332- Diversity of citizenship; amount in controversy; costs

322

70. FRCP 8(b) (6)- Effect of Failing to Deny. An allegation—other than one
relating to the amount of damages—is admitted if a responsive pleading is

323
324
325

326

required and the allegation is not denied. If a responsive pleading is not required,
an allegation is considered denied or avoided.
71. 26 U.S.C. 6065- Except as otherwise provided by the Secretary, any return,

327

declaration, statement, or other document required to be made under any

328

provision of the internal revenue laws or regulations shall contain or be verified
by a written declaration that it is made under the penalties of perjury.

329
330
331
332
333

72. 5 U.S.C. 556(d)- Except as otherwise provided by statute, the proponent of
a rule or order has the burden of proof. Any oral or documentary evidence may
be received, but the agency as a matter of policy shall provide for the exclusion of
irrelevant, immaterial, or unduly repetitious evidence. A sanction may not be

335

imposed or rule or order issued except on consideration of the whole record or
those parts thereof cited by a party and supported by and in accordance with the

336

reliable, probative, and substantial evidence. The agency may, to the extent

337

consistent with the interests of justice and the policy of the underlying statutes

338
339

administered by the agency, consider a violation of section 557(d) of this title
sufficient grounds for a decision adverse to a party who has knowingly committed

340

such violation or knowingly caused such violation to occur. A party is entitled to

341

present his case or defense by oral or documentary evidence, to submit rebuttal

342

evidence, and to conduct such cross-examination as may be required for a full and

343

true disclosure of the facts. In rule making or determining claims for money or

334

Page 12 of 40

344

benefits or applications for initial licenses an agency may, when a party will not be

345

prejudiced thereby, adopt procedures for the submission of all or part of the

346

evidence in written form.

347

73. 26 U.S.C. 7491- Burden shifts where taxpayer produces credible evidence

348
349

(l)General rule If, in any court proceeding, a taxpayer introduces credible
evidence with respect to any factual issue relevant to ascertaining the liability of

350

the taxpayer for any tax imposed by subtitle A or B, the Secretary shall have the

351
352

burden of proof with respect to such issue.
Limitations; Paragraph (1) shall apply with respect to an issue only if—

353

(A) the taxpayer has complied with the requirements under this title to

354
355
356

substantiate any item;
(B)the taxpayer has maintained all records required under this title and has
cooperated with reasonable requests by the Secretary for witnesses, information,

357

documents, meetings, and interviews...

358

359

74. IRS Internal Revenue Manual section 4.10.7.2.8- IRS Publications explains
the law in plain language for taxpayers and their advisors... While a good source

360

of general information, publications should not be cited to sustain a position.

361

75. U.C.C. 1-201(25) (26) (27)-

362

(25) "Organization" means a person other than an individual.

363

(26) "Party", as distinguished from "third party", means a person that has
engaged in a transaction or made an agreement subject to the Uniform

364

366

Commercial Code.
(27) "Person" means an individual, corporation, business trust, estate, trust,

367

partnership, limited liability company, association, joint venture, government,

368

governmental subdivision, agency, or instrumentality, public corporation, or any

369

other legal or commercial entity.

365

370

76. U.C.C. 1-201(19)- "Genuine" means free of forgery or counterfeiting.

371

77. U.C.C. 1-203- (a);(b);(c);(d);(e)

372

78. 28 U.S.C. 3002(15)(A)- United States" means— (A)a Federal corporation;
Page 13 of 40

373
374

(B)an agency, department, commission, board, or other entity of the United
States; or...

375

376

79. U.C.C. 9-307(8)- Location of United States. The United States is located in
the District of Columbia.

377

80. U.S.C.A. Const. Art: 1:8:17-18; To exercise exclusive legislation in all cases

378

whatsoever, over such District (not exceeding ten miles square) as may, by

379

cession of particular states, and the acceptance of Congress, become the seat of

380

the government of the United States, and to exercise like authority over all places

381

purchased by the consent of the legislature of the state in which the same shall

382
383

be, for the erection of forts, magazines, arsenals, dockyards, and other needful
buildings;~(18)And To make all laws which shall be necessary and proper for

384

carrying into execution the foregoing powers, and all other powers vested by this

385
386

Constitution in the government of the United States, or in any department or
officer thereof.

387

81. 8 U.S.C. 1101(A)(14)- The term "foreign state" includes outlying possessions
of a foreign state, but self-governing dominions or territories under mandate or
trusteeship shall be regarded as separate foreign states.

388

389
390

82. 28 U.S.C. 1603(B)(3)- which is neither a citizen of a State of the United

391

States as defined in section 1332 (c) and (e) of this title, nor created under the
laws of any third country.

392
393
394
395

83. 26 U.S.C. 7701(A)(26)- The term "trade or business" includes the
performance of the functions of a public office.
84. Fed. R. Civ. P. 10(c)- Adoption by Reference; Exhibits. A statement in a

396

pleading may be adopted by reference elsewhere in the same pleading or in any

397

other pleading or motion. A copy of a written instrument that is an exhibit to a
pleading is a part of the pleading for all purposes.

398
399

85. 11U.S.C. 101(5)- The term "claim" means-

Page 14 of 40

401

(A)right to payment, whether or not such right is reduced to judgment, liquidated,
unliquidated, fixed, contingent, matured, unmatured, disputed, undisputed, legal,

402

equitable, secured, or unsecured; or

403

(B)right to an equitable remedy for breach of performance if such breach gives

404

rise to a right to payment, whether or not such right to an equitable remedy is

405

reduced to judgment, fixed, contingent, matured, unmatured, disputed,

406

undisputed, secured, or unsecured.

400

407

86. UCC § 3-115- "Incomplete instrument"

408

87. International Covenant on Civil and Political Rights Article 1-

409

1. All peoples have the right of self-determination. By virtue of that right they

410

freely determine their political status and freely pursue their economic, social and

411

cultural development.

412

2. All peoples may, for their own ends, freely dispose of their natural wealth and

413

resources without prejudice to any obligations arising out of international

414

economic co-operation, based upon the principle of mutual benefit, and

415
416

international law. In no case may a people be deprived of its own means of
subsistence.

417

88. 42 USC §1983-Every person who, under color of any statute, ordinance,

418

regulation, custom, or usage, of any State or Territory or the District of Columbia,

419

subjects, or causes to be subjected, any citizen of the United States or other

420

person within the jurisdiction thereof to the deprivation of any rights, privileges,

421

or immunities secured by the Constitution and laws, shall be liable to the party

422

injured in an action at law, suit in equity, or other proper proceeding for redress,

423

89. 18 USC §241- If two or more persons conspire to injure, oppress, threaten,

424

or intimidate any person in any State, Territory, Commonwealth, Possession, or

425

District in the free exercise or enjoyment of any right or privilege secured to him

426

by the Constitution or laws of the United States, or because of his having so

427

exercised the same...

428
429

90. . 18 USC § 242- Whoever, under color of any law, statute, ordinance,
regulation, or custom, willfully subjects any person in any State, Territory,
Page 15 of 40

430

Commonwealth, Possession, or District to the deprivation of any rights, privileges,

431

or immunities secured or protected by the Constitution...(CF)

432

91. S.S.A. Form 521

433

92. Social Security - Program Operations Manual System; GN 00206.000

434

Withdrawals; There is no such law that exists or legal authority to deny

435

withdrawal.

436

93. Fed. R. Civ. P. 17(b) - an administrator

437

94. 26 U.S.C. (a)(9) - The term "United States" when used in a geographical

438
439

sense includes only the States and the District of Columbia.
95. S.S.A. Form SS-5

441

96. 18 U.S.C. 911- Whoever falsely and willfully represents himself to be a
citizen of the United States shall be fined under this title or imprisoned not more

442

than three years, or both.

440

443

97. 18 U.S.C. 912- Whoever falsely assumes or pretends to be an officer or

444

employee acting under the authority of the United States or any department,

445

agency or officer thereof, and acts as such, or in such pretended character

446

demands or obtains any money, paper, document, or thing of value...
STATEMENT OF THE CASE

447

448

On January 7, 2019 I sent;

449

1. Legal Notice of Resignation from Social Security and Demand for Rebuttal;

450

2. Social Security Form 521;

451

3.1.R.S. Form 56 with Actual and Constructive Legal Notice Attached;

452

4. Application for social Security Card Form SS-5;

453

5. Verification of Identity by Public Official

Page 16 of 40

454

6. Affidavit to Correct the Record to Rescind All Signatures on All Social Security

455

Form SS-5 to;

456

Nancy A. Berryhill: Office of the Commissioner, Social Security

457

Administration 6401 Security Blvd. Baltimore, MD 21235-0001 Certified Mail #

458

70180360000221629698;

459

David J. Kautter: Office of Commissioner Internal Revenue Service 1111

460

Constitution Ave N W Washington, DC 20224 Phone: 202-622-9511 Certified Mail

461

# 70180360000221636009;

462
463
464

Ms. Edwards/Supervisor: Social Security Administration Suite 100, 5540 S.R.
64 East Bradenton, Florida 34208 Certified Mail # 70180360000221629681
Jeffrey V. Austin/or daily Course of Business Supervisor: Internal Revenue

465

Service 5971 Cattleridge Blvd Sarasota, Florida 34232. Certified Mail #

466

70180360000221635996.

467

stating the following facts "I am writing you this letter because I have never been

468
469

eligible to participate in the social security program: (1) I never explicitly
consented to participate; (2) I was lied to about the effects of participation;^) I

470

never maintained a legal domicile in the "United States" as defined in the current

471

Social Security Act section 1101(a) (2) and 42 U.S.C. 1301(a) (2) as required by 20

472
473

CFR 422 .104.1 therefore permanently and irrevocably demand to terminate
participation and any number that was unlawfully issued under the program and

474
475

all contributions illegally withheld or sent in to be returned to me.
The Social Security Act is under 42 U.S.C. 666. My decision to withdraw is

476
477

permanent, final and irrevocable.
Mrs. Berryhill, the Social Security number that was issued for DARRYL-LORAYE:

478
479

WILLIAMS is [593-12-1762], issued to the ALL CAPITUL NAME. Enclosed "Social
Security Administration Form SS-5" is provide in accordance with 20 CFR

480

422.110(a), which stipulates that any change to an original social security

481

application can only be accomplished using social security Form SS-5.

482

SSA POMS section GN 00206.005 necessitates those who have received benefits

483

before withdrawal pay them back, as I have not received any benefits from you
Page 17 of 40

484

there is nothing to pay back under POMS GN 00206.005. If you feel this statement

485

is made in error and you believe that I owe any money, then please deduct what

486

you believe was paid to me from the amount I paid you and send me the

487
488

difference. Therefore, I demand that you pay back the unused portion of the
premiums that were involuntarily paid to you through my compelled participation

489

in the program. The enclosed " IRS Form 56" removes me formally, legally, and

490

officially from liability as the trustee of the trust and necessitates that your
records respect said correspondingly to ensure that I do not receive any more

491

493

notices or statements, or become the object of an lawful IRS collections directed
at the Social Security Trust and its trustee.

494

I also desire that you designate the original SS-5 application as not eligible and

495
496

reject the application with a correspondence on SSA letterhead. I now know the
original SS-5 application to be fallacious, false, fraudulent and perjurious and

497

hence in need of replacement, not change. I was not aware of this at the time of

498

application but I am aware NOW and I have a duty to notify you of this facts. The

499
500

application was submitted from me as a minor, the age of majority had not been
reached and my parents can't contract on my behalf. 20 CFR 442.103(d) and the

501

back of the SS card both specifically express that the card and its associated

502

number are the property of the SSA and not the holder and must be returned

503
504

upon request. I declare without waiver that I am not and never have been a public
officer in/of the U.S. government. Block 5, the Citizenship block, was

505

unintentionally falsified. I am not and never have been a Statuary "national and

506
507

citizen of the United States at birth" per 8 U.S.C. 1401, 26 U.S.C. 3121(e), or 26
C.F.R. l.l-l(c). I am a "Non-citizen National" alien throughout federal law. As

508

records on file I now know to be false, if you refuse to change them, then you are

509

"causing to be furnished" false information as indicated on the Form. Causing me

510
511

to unlawfully remain liable for the compulsions associated with a public office
that I do not lawfully hold also constitutes criminal witness tampering under 18

512

U.S.C. 1512. By offering to let me remain in said illegitimate office knowingly it is

513

felonious and illegal to do so. In compliance with 26.C.F.R. 301.6109-1(1) (i), I

514
515

request that in the records and databases of the IRS and the SS Administration,
designate that the SS number associated with the Civiliter mortuus, defunct,

516

dead" trustee" be assigned its correct status as belonging to legally deceased

492

Page 18 of 40

517
518

"non-resident alien" who is not engaged in a "trade or business", which is
described in 26 C.F.R. 1.871-l(b). Treasury regulation 26 C.F.R. 301.6109-l(g)(l)(i)

519
520

states that; persons are entitled as a matter of law, to request that the IRS
designate and classify the fact that a SS number belongs to a nonresident alien.

521

This request is not consent or agreement that I owe or control said number, or

522

that assumed number refers to me personally or private. The fact remains that

523
524

the SSA owns the number and the trust is legally dead as it is without a
consciousness currently, as the trustee has never filled his office consensually,

525
526

lawfully, or knowingly.
I am a "Non-resident alien" Non-individual not engaged in a trade or business" as

527

defined in 26 C.F.R. 1.871-l(b) l(i), understand now that I always have been and

528
529

expect to permanently act as one indefinitely into the future. The Treasury
regulations as stated above affirm that non-resident aliens, me included, are

530

permitted to request that the IRS assign non-resident alien status to the SS

531
532

number allocated.
I am a "stateless person" and a transient foreigner" with a legal domicile not with

533
534

any "state" as defined in 28 U.S.C. 1332(d), 4 U.S.C. 110(d), or 26 U.S.C.
7701(a)(10). All such "stateless persons" are out of subject to the jurisdiction of

535

any federal court as they are domiciled outside of the general jurisdiction of the

536

federal government. Therefore, as I am not an "individual" nor do I consent to act

537
538

in such a capacity, you may not lawfully use such a number against me.
My estate and the property there of is a "foreign state" as described in 26 U.S.C.

539

7 701(a)(31) and I live in a "foreign state", as defined in 28 U.S.C. 1332(d), which is

540
541

what all states of the Union are. Therefore, under 28 U.S.C. 1332, the federal
government may not lawfully assert diversity of citizenship jurisdiction over me or

542
543

my estate.
The following facts stipulated herein this correspondence govern my current and

544
545

further legal relationship with the IRS, the Social Security Administration, under
FRCP 8(b) (6) a failure to deny these facts within 30 days of sending this document

546
547

shall constitute an affirmation admission of their truthfulness. 26 U.S.C. 6065
requires that all denials are required to be signed under penalty of perjury by the

548
549

person denying, and that the person denying must have a personal knowledge of
the facts indicated. Administrative Procedures Act, 5 U.S.C. 556(d) and 26 U.S.C.
Page 19 of 40

550

7491 stipulate that you as the moving party declaring a position conflicting to the

551

law documented herein have the burden of proving the facts and statements

552
553

made herein are false. In accordance with the IRS Internal Revenue Manual (IRM)
section 4.10.7.2.8 that states that IRS publications may not be cited to sustain a

554

position your evidence may not come from any such IRS publication(s).

555

People can voluntarily end their participation in the program because the SSA

556
557

offers the SSA Form 521 and procedures for quitting in the POMS section GN
00206.000. There is no such law that exists or legal authority to deny withdrawal.

558

If there is; all I want is the statute and the implementing regulation that

559

authorizes you to have legal authority to deny withdrawal. I reasonably expect

560
561

you to follow the law and be just as responsible to answer to the law for you say
as I myself would be. Again, I am withdrawing from the Social Security

562

Administration. If it is decided that you will not honor this request, I demand that

563

you rebut this documentation point in full and that any responsive
correspondence clearly establish an answer for your violations of law and your

564

567

willful decision to exceed your lawful delegated authority. In addition the,
"ACTUAL AN CONSTRUCTIVE LEGAL NOTICE U.C.C. 1-201(25) (26) (27): Alongside
IRS Form 56" states;

568

"PUBLIC NOTICE: Filing of this and related instruments upon the U.C.C

569570

Commercial Registry constitutes "lawful", open, notorious, public notice of the
subject matter executed an presented in good faith U.C.C. 1-201(19); U.C.C. 1-203

571

to the UNITED STATES, i.e. 28 U.S.C. 3002(15)(A): U.C.C. 9-307(8); U.S.C.A. Const.

572

Art: 1:8:17-18, by the real party in interest; Secured Party of record an Holder-indue-Course(HDC) of this and all related documents and instruments.

565
566

573

575

TAKE SPECIAL NOTICE from my "Lawful" private Trust jurisdiction [as defined
within, 26 U.S.C. 7701(A) (31); 8 U.S.C. 1101(A)(14); 28 U.S.C. 1603(B)(3)] That I

576

am "Non-Assumpsit", and "Non-Domestic" and "Non-Federal", in regards to the

577

UNITED STATES and/or any of its " Constitutes STATES" incorporated thereof, e.g.,
inter alia, but not limited to ALL states, and the alike; and also in regards the

574

578
579
580
581
582

UNITED NATIONS, as well as to England and Russia... This Document when
executed by my autograph alone; will stand as un-rebuttable evidence of my
resignation of compelled Social Security Trustee/Transferee. Noting: that
Congress cannot create a trade or business, i.e. "as defined within 26 U.S.C.
Page 20 of 40

583

7 701(A)(26);" Within a state in order to tax it; see: inter alia, License tax cases, 72

584

U.S.462,18 L.E.497(1866); M'llvaine V. Coxe's Lessee, 8U.S. 209; 2 L.E. 598(1808);

585

and Yick Wo V. Hopkins, 118 U.S. 356, 6 S. Ct. 1064(1866). The real party in

586

interest/Secured Party of the incorporated Fed. R. Civ. P. 10(c) private agreement

587
588

number I hereby duly "ACCEPT FOR VALUE" (BA). The Social Security
Card/Account with claim 11U.S.C. 101(5) and (Special) Maritime Lien upon all

589

related accounts both general and special; as defined in this afore said Notice

590

without prejudice, for cause."

591

[On January 18, 2019 Social Security Administration wrote a note stating. "Dear

592

Mr. Williams:

593

Thank you for your January 7, 2019 letter about the Social Security program.

594

Unless specifically exempt by law, everyone working in the United States must

595

pay Social security taxes. An individual must voluntarily file an application to

596
597

receive Social Security benefits. The law requires the Social Security
Administration to maintain records of workers' earnings and to establish any

598

other records necessary to carry out our responsibilities under the Social Security

599

Act. We created the Social Security number to keep an accurate record of each
individual's earnings and subsequently to monitor benefits paid under the Social

600

602

Security program. Since many individuals have the same name, or change their
name, we needed a reliable and permanent system to distinguish one individual

603

from another in our records. Once you have a social security number, we cannot

604

cancel or destroy the record. The Supreme Court has upheld the constitutionality

605

of the Social Security Act. We will not respond further to your correspondence

606

about voluntary participation in the Social Security program or the withdrawal of

607

Social Security taxes....]

608

On February 14, 2019 I mailed an Affidavit for Right to Defend My Rights, stating

609
610

the facts to:
Nancy A. Berryhill: Office of the Commissioner, Social Security

611

Administration 6401 Security Blvd. Baltimore, MD 21235-0001 Certified Mail #

612

7018 1830 0000 4625 2546

601

Page 21 of 40

614

David J. Kautter: Office of Commissioner Internal Revenue Service 1111
Constitution Ave N W Washington, DC 20224 Phone: 202-622-9511 Certified Mail

615

# 7018 1830 0000 4625 2539

616

Ms. Edwards/Supervisor: Social Security Administration Suite 100, 5540 S.R.
64 East Bradenton, Florida 34208 Certified Mail # 7018 1830 0000 4625 2553

613

617

620

Jeffrey V. Austin/or daily Course of Business Supervisor: Internal Revenue
Service 5971 Cattleridge Blvd Sarasota, Florida 34232. Certified Mail # 7018 1830
00004625 2522.

621

I Loraye Blackeagle/Authorized Representative-Beneficiary, of the transmitted

622

utility all capital name [DARRYL-LORAYE: WILLIAMS©] SSN 593-12-1762 am

623

responding to a January 18, 2019; INCOMPLETE INSTRUMENT (UCC § 3-115) I

624

received. Ms. Berryhill, I have Creator [God] giving right to rescind my signature

625

from any null and void contract that was signed when I was a minor (14 years old:

626

06-17-1982) and is void ab initio. Contracts signed by minors are not legally

627
628
629

enforceable. Your [INCOMPLETE INSTRUMENT] is your testimony that you neither
respect me or the solemn oath you made and that you DID NOT READ THE
INFORMATION that you received.

630

I Loraye Blackeagle/ (fictitious name-DARRYL-LORAYE: WILLIAMS©) a living

631

Moorish American titled sovereign freeman [we the people], having Creator

632

[Elohim] giving Rights, International Rights, and fundamental freedom. A

633
634

sovereign cannot be tried in their own court, and I will only make a special
appearance in any jurisdiction. And these are my Common Law Right and Natural

635

Rights that have been expressed. And you are under obligation as being a state

636
637

party member to this covenant to respect my Rights. And these Rights come from
your own Constitution. And you are violating my International Rights,

638

fundamental freedom and Constitutional rights:

618
619

639

U.S. Reservations, Declarations, and Understandings

640

International Covenant on Civil and Political Rights

641

138 Cong. Rec. S4781-01
Page 22 of 40

642

II. The Senate's advice and consent is subject to the following understandings,

643

which shall apply to the obligations of the United States under this Covenant:

644

... (5) That the United States understands that this Covenant shall be implemented

645

by the Federal Government to the extent that it exercises legislative and judicial

646

jurisdiction over the matters covered therein, and otherwise by the state and

647

local governments; to the extent that state and local governments exercise

648

jurisdiction over such matters, the Federal Government shall take measures

649

appropriate to the Federal system to the end that the competent authorities of

650

the state or local governments may take appropriate measures for the fulfillment

651

of the Covenant.

652

III. The Senate's advice and consent is subject to the following declarations:

653

(1)

654

of the Covenant are not self-executing.

That the United States declares that the provisions of Articles 1 through 27

International Covenant on Civil and Political Rights

655
656

Article 1

657

1. All peoples have the right of self-determination. By virtue of that right they

658

freely determine their political status and freely pursue their economic, social and

659

cultural development.

660

2. All peoples may, for their own ends, freely dispose of their natural wealth and

661

resources without prejudice to any obligations arising out of international

662

economic co-operation, based upon the principle of mutual benefit, and

663

international law. In no case may a people be deprived of its own means of

664

subsistence.

665

Article 2

666

2. Where not already provided for by existing legislative or other measures, each

667

State Party to the present Covenant undertakes to take the necessary steps, in

668

accordance with its constitutional processes and with the provisions of the

669

present Covenant, to adopt such laws or other measures as may be necessary to

670

give effect to the rights recognized in the present Covenant.

671

Article 5
Page 23 of 40

672

1. Nothing in the present Covenant may be interpreted as implying for any State,

673

group or person any right to engage in any activity or perform any act aimed at

674

the destruction of any of the rights and freedoms recognized herein or at their

675

limitation to a greater extent than is provided for in the present Covenant.

676

Article 47

677

Nothing in the present Covenant shall be interpreted as impairing the inherent

678
679

right of all peoples to enjoy and utilize fully and freely their natural wealth and
resources.

680

Constitution of Florida ARTICLE I.

681

Declaration of Rights.

682

Section 1. That all freemen, when they Form a social compact, are equal; and

683

have certain inherent and indefeasible rights, among which are those of enjoying

684
685

and defending life and liberty; of acquiring, possessing, and protecting property
and reputation; and of pursuing their own happiness.

686

Section 2. That all political power is inherent in the people, and all free

687

governments are founded on their authority, and established for their benefit;

688

and, therefore, they have, at all times, an inalienable and indefeasible right to

689

alter or abolish their Form of government, in such manner as they may deem

690

expedient. Be it known to all, in the nature of UCC 671-207 that I reserve my

691
692

natural common law rights not to be compelled to perform under any contract
that I did not enter into knowingly, voluntarily, and intentionally and furthermore,

693

I do not accept the "benefit" of any hidden or unrevealed contract or commercial

694

agreement. As such the hidden or unrevealed contracts that supposedly create

695
696

obligations to perform for person of subject status, are inapplicable to me, and
are null and void. If I have participated in any of the supposed "benefit"

697

associated with these hidden contracts, I have done so under duress, for lack of

698

any other practical alternative. Any such participation does not constitute

699
700

"acceptance" in contract law, because of the absence of full disclosure of any
valid "offer" and voluntary consent without misrepresentation or coercion, under

701

contract law. Without a valid voluntary offer and acceptance knowingly entered
Page 24 of 40

703

into by both parties there is no meeting of the minds and therefore no valid
contract. My supposed "contract" is therefore void ab initio. Typical examples of

704

such compelled and pretended "benefits" are:

705

(1). Birth Certificate. (2). The use of an Identification number from a government

706
707

agency. (3). The use of fiat currency to discharge my debt. (4). The use of a bank
account, with my signature on the bank signature card. (5). Past tax returns filed.

708

(6). The use of a driver's license. (7). State plates on my car. (8). Declaration of

709

citizenship (9). Past voters' registrations. (10). Marriage license. (11). Children in

710

Public school. (12). Use of semantics.

711

My use of such alleged "benefit" is under duress only, and is with full reservation

712

of all my common law rights, I have waived NONE OF MY INTRINSIC RIGHTS AND

713

FREEDOMS BY MY USE THEREOF. Furthermore my use of such compelled

714

"benefits" may be temporary until better alternatives become available, practical

715

and widely recognized. Furthermore, I hereby revoke, rescind, and make void ab

716
717

initio, all powers of attorney, in fact or otherwise, implied in law or otherwise,
signed by me or anyone else, as it pertains to the government identification

718

number previously assigned to me, as it pertains to my birth certificate, or any

719

other licenses or certificates issued by any and all government or quasi-

720

governmental entities, due to the use of various elements of fraud by said

721

agencies to attempt to deprive me of my Sovereignty or property.

722

I hereby waive, cancel, repudiate and refuse to knowingly accept any alleged

723

"benefit" or gratuity associated with any of the aforementioned licenses,

724

numbers, or certificates.

725

I do hereby revoke and rescind all power of attorney in fact or otherwise, signed

726

by me or otherwise, implied in law or otherwise, with or without my consent or
knowledge, as it pertain to any and all property, real or private, corporeal or

702

727

729

incorporeal, obtained in the past, present, or future. I am the sole legal owner
and possess allodial title to any and all such property, including but not limited to

730

my physical human body.

728

Page 25 of 40

731

Ms. Berryhill I accept your oath of office. And in your fiduciary position, I demand

732

that you read the letter received January 7, 2019 Form me Loraye

733
734

Blackeagle/beneficiary: [D.B.A. / DARRYL-LORAYE: WILLIAMS©]; and correct my
status and update all records. Also send me corresponding Forms stating my

735
736

updated information and exemption from social security administration. All
responds must be from a living human man or woman. Any other respondents

737
738

will be returned to sender null and void. Once my records are corrected, all other
entities are incompetent to manage any of my affairs and are hereby fired, fired,

739

fired. Any other action will be a dishonor to your oath of office. Any infringements

740

of my guaranteed and secured rights occur on your part or by any party with

741

whom you claim any affiliation. I will scrutinize said infringement and any injury

742

there from pursuant to 42 USC §1983 and 18USC §241-242 at minimum, and I will

743

proceed accordingly. After being told of my rights and warned of her dishonor

744

on March 6, 2019 Social Security Administration Response to my affidavit with the

745

following note with only a name change stating the same color of law.

746

"Dear Mr. Blackeagle: Thank you for your February 14, 2019 letter about the

747

Social Security program. Unless specifically exempt by law, everyone working in

748
749

the United States must pay Social security taxes. An individual must voluntarily
file an application to receive Social Security benefits...

750

Ms. Berryhill did not respond in the mandatory affidavit to rebut my affidavit, and

751

her statements did not have the requirement, "shall contain or be verified by a
written declaration that it is made under the penalties of perjury".

752
753

On March 11, 2020 I filed a civil Grievances for violation of Rights;

754
755

International Covenant on Civil and Political Rights and Treaty Law stating the
facts of my case.

756

On April 20, 2020 I received the Report and Recommendation filed

757

04/15/2020 (was not under penalty of perjury according to 28 U.S.C. §1746) from

758

759

Christopher P. Tuite. Tuite states ((1) a "writ to proceed in District Court without
Prepaying fees or costs", which I construe as a motion to proceed in forma

760

pauperis pursuant to 28 U.S.C. §1915(IPF Motion)(Doc. 2); and (2) a document
Page 26 of 40

761

entitled " Grievance for violation of Constitutional Rights; International Covenant

762

on Civil and Political Right(s) and Treaty Law" (Grievance Filing) (Doc. 1)).

763

This was done in violation of 18 U.S.C. §1512 ((c)Whoever corruptly—(l)alters,

764

destroys, mutilates, or conceals a record, document, or other object, or attempts

765

to do so, with the intent to impair the object's integrity or availability for use in an

766

official proceeding; or (2)otherwise obstructs, influences, or impedes any official

767

proceeding, or attempts to do so, shall be fined under this title or imprisoned not

768

more than 20 years, or both.) Tuite altered my document just so he could dismiss

769

my suit! Tuite has no authority to mutilate my lawful affidavits.

770

771

On May 1, 2020 I responded with an (Affidavit for Rebuttal to the Court's
Presumptions; and "Report and Recommendation"). In respond to Christopher P.

772

Tuite's letter "Report and Recommendation"... As a matter of public interest and

773

to ensure I am dealing with a Legal and lawfully competent court of records per

774

Article III and Article 1 section 8 clauses 9 of the American Constitution. I rightfully

775
776

demand to see Tuite's Registration Statement Pursuant to the Foreign Agents
Registration Act of 1938 OMB No. 1124-0001; an oath or affirmation of office on

777

the public record to support and defend the Constitution for America Republic in

778

regard to this matter. Tuite had an obligation to produce this information under

779
780

the law; he refused in violation of the law. I objected to Tuite's report and
recommendation for the following point and clarified and defeat Tuite's

781

presumptions and uncertainness point for point in this case.

782

Point 1) Tuite states; "not entirely clear, it appears Williams is seeking

783

monetary and injunctive relief..."

784

Yes! I am seeking monetary relief for injuries I sustained related to this case. For
The restraints to my liberty;
1.
Compensatory damages for lost wages;
2.
Mental anguish and suffering; and
3.
Emotional distress, (ibid Lines 484- 485 pg. 16 of Grievances for violation of
4.
Constitutional Rights; International Covenant on Civil and Political Right(s) and
Treaty Law this case).

785
786
787
788

789
790

Page 27 of 40

791

Yes! I'm seeking Mandatory injunction relief relating to this case. Because

792
793

irreparable harm has already happened, on January 18, 2019 Ms. Berryhill stated
"we will not respond further to your correspondence about voluntary

794

participation in the Social Security program or the withdrawal of Social Security

795

taxes" which she has no authority to disregard my will about my Moorish estate. I
want to be left alone in my private life and my private affairs; this is my

796
797
798

constitutional right and my will. This injunction is for Social Security and United
States as defined in: 28 U.S. Code § 3002 (15).

800

Point 2) Tuite states; "in support of his claim of indigence, Williams' IFP
Motion states". Williams never filed an in forma pauperis application it is a (Writ

801

to Proceed in District Court without Prepaying Fees or Costs). Williams offered to

802

pay in silver, as stated by Tuite himself "...and that his only asset is a "1 troy ounce

803

.999 silver coin... valued at $1,068.00...". Pursuant to UCC 3-603 ((b) If tender of
payment of an obligation to pay an instrument is made to a person entitled to

799

804
805
806

enforce the instrument and the tender is refused, there is discharge, to the extent
of the amount of the tender, of the obligation of an indorser or accommodation

808

party having a right of recourse with respect to the obligation to which the tender
relates). (All Debts contracted and Engagements entered into, before the

809

Adoption of this Constitution, shall be as valid against the United States under this

810

Constitution, as under the Confederation). And the silver coin was stolen!

807

811

Point 3) What is lawful money? Williams offered to pay in silver, Tuite

812

refused to accept. Federal reserved note are not dollars, they are a debt

813

instrument and I cannot pay a debt with a debt. Article 1 section 10 of the

814
815

American constitution says- "No State shall enter into any Treaty, Alliance, or
Confederation; grant Letters of Marque and Reprisal; coin Money; emit Bills of

816

Credit; make any Thing but gold and silver Coin a Tender in Payment of Debts;

817

pass any Bill of Attainder, ex post facto Law, or Law impairing the Obligation of

818

Contracts, or grant any Title of Nobility"... This Constitution, and the laws of the

819
820

United States which shall be made in pursuance thereof; and all treaties made, or
which shall be made, under the authority of the United States, shall be the

821

supreme law of the land; and the judges in every state shall be bound thereby,

Page 28 of 40

822

anything in the Constitution or laws of any State to the contrary

823

notwithstanding...

824
825
826

Point 4) Tuite states that Williams failed to make a claim. He is correct. But
this defect can and will be corrected. [Making claims See below.]
Claim 1. Berryhill violated my civil and Political rights to self-determination

828

(Part 1 Article 11. All peoples have the right of self-determination. By virtue of
that right they freely determine their political status and freely pursue their

829

economic, social and cultural development). When she refused to accede to me

830

demand for my private estate (My estate and the property there of is a "foreign

831

state" as described in 26 U.S.C. 7701(a) (31)) to be returned. She has no authority

832

to dictate my private property because the property is not her, or Social Security.

833

[The presumption that a trust was intended in such circumstances is however

834

rebutted by proof of a contrary intention of the person from whom the

835

consideration comes... [(Florida Jurisprudence (Trust Law) §56))]]

827

836

Claim 2.Berryhill violated my civil and Political rights to freely dispose of my

838

natural wealth and resources without prejudice to any obligations arising out of
international economic co-operation, based upon the principle of mutual benefit,

839

and international law. In no case may a people be deprived of its own means of

840

subsistence. She deprived me of my property in addition forcing me to pay taxes

841

to the IRS [foreign corporation] without any authority to do so.

837

842

Claim 3. Berryhill violated my right of International Covenant on Civil and

843

Political Rights when she failed to adopt such laws or other measures as may be

844

necessary to give effect to the rights recognized in the present Covenant.

845

846

Claim 4. Berryhill violated my rights and freedoms recognized in the
International Covenant on Civil and Political Rights, after being warned when she

847
848

performed the activity aimed at the destruction of my rights to withdraw from
Social Security Program Berryhill had an obligation an a duty to withdraw the

849

application and return my estate once she was instructed to do so.

850

Claim 5. Berryhill violated my inherent right to enjoy and utilize fully and
freely my natural wealth and resources when she refuses to return my Moorish

851

Page 29 of 40

i

852

estate, this estate does not belong to Berryhill or social security and she does not

853

have any authority or a right to keep my private property.

854

Claim 6. Berryhill violated my unalienable and indefeasible right to alter or
abolish my form of government, in such a manner as I may deem expedient when

855
856
857
858
859
860

861
862

she refused her obligation as the trustee to correct the record of my estate after
being instructed to do so by the Grantor; beneficiary of the trust which is a
dishonor.
Claim 7. Berryhill violated my right and constitutional liberty to rescind my
autograph from the void application I signed when I was 14 years old (06-171982). Berryhill had a duty to rescind the application because she knows a minor
is unable to sign a contract unless it is for essential items.

864

Claim 8. Berryhill violated the Treaty of Peace and Friendship 1787 when she
refused to return my subjects or effects belonging to me, the subject shall be set

865

at liberty and effect returned to the owner. She has no authority to keep my

866

effects and the effects are not her or social security and as trustee she has an

867

obligation to return private property.

868

Claim 9. Berryhill violated my constitutional right to privacy under color of
law when she stated "individuals cannot voluntary end their participation in the

863

869

871

program" because she knows this to be a lie. I am a freeman and can end any
fraudulent contract I did not willingly sign.

872

Claim 10. Berryhill violated my constitutional right to my property under

870

873

color of law stating "everyone working in the United States must pay social

874

security taxes" she knows this to be a lie because taxes are voluntary and she is
deemed to know the law, and there is no law that make me pay taxes to a
corporation.

875
876
877

Claim 11. Berryhill violated my constitutional right of liberty to cancel my

878

participation in Social security under color of Law when she stated "once you

879

have a social security number, we cannot cancel or destroy the record". Berryhill

880

knows this to be untrue because they have a social security form (SSA-521

Page 30 of 40

881

Request for Withdraw of Application) that she received from me. Berryhill had no

882

authority to make that decision after being warned by the beneficiary of the trust.

883

Point 6) Tuite states "Blackeagle is not a member of the Florida Bar, and

884

there is nothing in the signature block that would suggest he or she is a licensed

885

attorney". He is correct I am not an attorney. And "The practice of law cannot be

886

licensed by any state/ state" Schware v. State of Examiners, 353 U.S. 238,239;

887

"The practice of the Law is an occupation of Common Rights!" Sims V. Ahrens, 271

888

S.W. 720 (1925). And this case is in Propria Persona [civil cover sheet: 1 (c)] my

889
890

appellation is Loraye Blackeagle/Authorized Representative Owner of the
Fictitious all capital transmitting utility name: DARRYL-LORAYE: WILLIAMS©

891

[copyrighted 03/13/2018 by Loraye Blackeagle] any unauthorized use of the

892

copyright name will be a violation of the copyright laws and punishable under the

893

laws of the united States of America.

894
895
896
897
898

[AFFIDAVIT OF OWNERSHIP FOR LORAYE BLACKEAGLE©
FOR CERTIFICATE OF LIVE BIRTH OF DARRYL-LORAYE: WILLIAMS
STATE OF FLORIDA STATE BOARD OF HEALTH
BUREAU OF VITAL STATISTICS
CERTIFICATE OF LIVE BIRTH, BIRTH NUMBER 109-68-043434]

899

I am a (Moor American National) living, breathing, flesh-and-blood man, in full

900

life, made in the Creator's image, with indefeasible title to my property and lawful

901

owner of the landed Estate known as DARRYL-LORAYE: WILLIAMS, and it's real

902

property and interest, under the seal," DARRYL-LORAYE: WILLIAMS", or it's

903

derivation, I am recorded as the grantee on the document of title for the Estate

904

described as follows:

905

Birth Certificate #109-68-043434 Florida State Board of Health in the Bureau of

906

Vital Statistics

907

Place of Birth: Bradenton, Florida -Republic of Florida

908

Date of Birth: Wednesday June 5,1968 06:46 AM

909

Attendants Address: Manatee Memorial, Manatee County, Bradenton, Florida

Page 31 of 40

910

Grantor(s): Gloria Delores Williams (maiden name)

911

Grantee(s): [DARRYL LORAYE WILLIAMS] Loraye Blackeagle

912

Recorded Date: June 10,1968...

913
914

This declaration of facts is based on Affiant's own firsthand knowledge and belief;
mark Affiant's word;

915

1. One, Loraye Blackeagle is familiar with the facts recited in the Certification of

916

Vital Record and that the party named in the aforesaid certificate is the property

917

of the Affiant who is the owner named in said certificate of title.

918

2. One, Loraye Blackeagle, declares and affirms that by my freewill act and deed

919
920

Affiant, Loraye Blackeagle, executes this acknowledgement of my acceptance of
the Birth Certificate DARRYL-LORAYE: WILLIAMS #109-68-043434 and lawful

921

ownership of the property under the terms of the deed. Affiant asks that the

922

record on file in the office of Secretary of State for the United States of America

923
924

and the State of Florida be updated to show my acceptance of the said certificate
of origin, as lawfully seized owner of the document.

925

3. One, Loraye Blackeagle, declares and affirms that all of Affiant's other real

926
927

property and interest issued in the name of the Certificate of Vital Record Birth
Certificate# 109-68-043434 is to be immediately returned to the Estate.

928

4. One, Loraye Blackeagle ("Principal"/"Original"), a living man in rerum natura,

929

declares and affirms that he accepts for value the attached bond, Certificate of

930

Live Birth No. 109-68-043434 and all endorsements front and back in accord with

931

the Uniform Commercial Code, the Principal/Original being the sole authorized
acceptor of the said bond, contributor of value thereto, and contributing
beneficiary thereof.

932
933

935

5. One, Loraye Blackeagle, accepts the oaths of officers and binds them to it, as
well as bestows Affiants sovereign immunity on them while administering my

936

lawful orders. This public record under the seal of a competent court is

937

guaranteed full faith and credit per Article 4, Section 1 of your Constitution. Any
officer of the public who does not immediately carry out these lawful orders

934

938

Page 32 of 40

939

acknowledges warring with the Constitution, and committing treason. So let it be

940

written, so let it be done. (Affidavit of Ownership for Loraye Blackeagle© For

941
942

Certificate of Live Birth of Darryl-Loraye: Williams filed January 3rd 2019 in
Manatee County). I am not part of any Admiralty Laws, or Maritime Laws.

943

I AMNOT and WILL NOT represent any office or exercising any agent on behalf of

944

any government such as: "citizen", "corporation", "resident", "person",

945

"taxpayer", "driver", or "spouse" or any [28 U.S. Code § 3002.Definitions ] (15)
Point 7) In addition Tuite has stated "to this threshold defect,

946
947

Williams's Grievances Filing- which echoes themes typically in "sovereign citizen"

948

type pleading- is largely nonsensical and incoherent."

949

Tuite, I have NEVER, NEVER, called myself a [sovereign citizen] also I am not a

950
951

sovereign citizen! This is not a real word and it is not in Black's Law Dictionary,
sixth edition. PLEASE DO NOT IMPLY ABOUT ME BEING A SOVEREIGN CITIZEN IN

952

THAT MANNER AGAIN! I am a man, in full life, not an undesirable, or a heathen,

953

chosen by the most High! Legal definitions-

954

Sovereign: A person, body, or state in which independent and supreme

955

authority is vested; a chief ruler with supreme power; a king or other ruler in a

956

monarchy. [Black's Law Dictionary, sixth edition]

957

Citizen: One who, under the Constitution and laws of the United States, or

958

of a particular state, is a member of the political community, owing allegiance and

959

being entitled to the enjoyment of full civil rights. [Black's Law Dictionary, sixth

960

edition]

961

One cannot be Sovereign and a citizen at the same time this is a misnomer (a

962

wrong or inaccurate name or term). You are using this term to assassinate my

963
964

character. Tuite you are deemed to know the law. You cannot be a king with
supreme authority and a citizen under the Constitution and laws of the United

965

States at the same time. It's like being a Free Slave, you can't be free and a slave

966
967

at the same time. Knowingly failure to disclose material information necessary to
prevent statements from being misleading or making representation despite

968

knowledge that it has no reasonable basis in fact, is actionable as fraud under the
Page 33 of 40

969

law. Rubinstien v. Collars 20 F.3d 160,1990. Augupia verforum sunt judice

970

indigna. A twisting of language is unworthy of a judge.

971

973

Point 8) Tuite States "[Sjo-call sovereign citizens" as those that believe "they
are not subject to government authority and employ various in an attempt to
among other things, avoid paying taxes". I am not subject to any corporation. I

974

have no contract with any federal corporation, an agency, department,

975

commission, board, or other entity of the United States. What law forces me, a

976

live man to pay taxes? I have no capital gains or investments, I'm not a

977
978

corporation and I have never been operating in a corporate capacity and
investing, I do not have any return off investment. My pecuniary compensation

979

was not taxable when I did work. "Persons are not the subject of commerce, and

980

cannot be import goods, they do not full within the meaning found upon the

981

constitution, of all power given to congress to regulate commerce, and the
prohibition of the states for imposing a duty on imported goods. He ought not to

972

982
983
984
985

be heard who advances a proposition contrary to the rules of law. The act of the
law does no one an injury. 5 Co. 116
I accepted Tuite oath of office and decreed the law as followed.

986

This case is about me acquiring me personal property from social security in

987

which I have a God giving right to do, as you have read this case. I signed the

988

social security application when I was a minor, 14 years old: 06-17-1982 which

989
990

makes it void ab initio. A child under the age of 18 is considered a minor and
unable to sign a contract unless it is for essential items. You did not address this

991

major issue. Taxes are voluntary. There is no law or contract that binds me to pay

992

taxes. I wish to have a mandatory injunction from social security and United

993
994

States corporation so I won't have to fear for my life when I'm stopped by the
police. To be left alone in my private life. I have a constitutional right to be

995

private. This is my rebuttal to the cestuis que trust. All trustee and public officials

996

are FIRED! FIRED! FIRED! This trust was established by fraud an undue influence. I

997

am now the sole grantor; trustee; and grantee of the cestuis que trust, in which

998

the trust is merged. [Merger Doctrine states- "doctrine of merger" refers to the
fusing of legal title in the event the same person becomes both the sole trustee

999

Page 34 of 40

1000

and the sole beneficiary of a trust. This will terminate the trust. The beneficiary

1001

owns the trust property outright]. I never intended to have a trust with the United

1002

States Corporation. The trust is TERMINATED. Return all property to the

1003

beneficiary immediately.
For the reasons outlined above, I recommend, Demand that the Court:

1004

1005

1.

Discharge the prepayment of fees or security.

1006

2.

Move this case to Summary Judgement. All the Facts are true and correct.

1007

3.

Direct the Clerk of Court to move the case forward.

1008

It's my wish as the Sovereign of the court that Magistrate Tuite reverses his

1009

decision and moves this court to Summary Judgement.

1010

I am not an undesirable, or a heathen!

ion

Magistrate Tuite, A. Saul, and N. Berryhill, you took an Oath of office to the

1012
1013

Constitution of the united States of America in Flonor and good standing. What
Flonor would you have by keeping my private property? What good standing

1014

would there be? By not returning My Private Property you would be a thief in

1015

Dishonor!

1016

On 04/30/2020 Tuite filed an Order, stating "neither party filed written

1017

objections to the Report and Recommendation and the time for filing such

1018

objection has elapsed".

1019

On May26, 2020 I filed an AFFIDAVIT TO CORRECT TFIE ORDER. This statement is

1020

wrong. Mr. Williams received the REPORT AND RECOMMENDATION on
04/20/2020 by mail at my home. (Filling date 04/15/2020). Mr. Williams mailed

1021

1022
1023

the response "Affidavit for Rebuttal to the Court's Presumptions and" Report and
Recommendation; certified letter 7018 1830 0000 4622 3829" on May 1, 2020

1024

eleven days [11 days] after receipt of the REPORT AND RECOMMENDATION

1025

[certified mail number 7018 1830 0000 46218009]. This is within the of 14 day

1026

time line.

Page 35 of 40

1027

A party has fourteen (14) days from this date to file written objections to the

1028

Affidavit to Correct the Order's factual finding and lawful common law rights. A

1029

party's failure to file written objection, or to move for an extension of time to do
so, waives that party's right to challenge on appeal any unobjected-to sworn
factual findings or lawful common law right's (CF.)

1030
1031
1032

1033
1034

1035

On June 17, 2020 I received the Order Filed June 1, 2020 forwarded to wrong
address [2519 9th Avenue West APT 2 Bradenton Florida 34205-4846].
On July 31, 2020 I filed a Notice of Appeal to the UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT. Exhibits-

1037

1. Exhibit A- Legal Notice of Resignation from Social Security and Demand for
Rebuttal.

1038

2. Exhibit B. - Social Security Administration Form 521.

1039

3. Exhibit C. - IRS Form 56 with Actual and Constructive Legal Notice Attached.

1040

4. Exhibit D. - Application for a Social Security Card Form SS-5.

1041

5. Exhibit E. - Verification of Identity by Public Official.

1042
1043

6. Exhibit F. - Affidavit to Correct the record to Rescind All Signatures on All Social
Security SS-5 Forms.

1044

7. Exhibit G. - Affidavit for Right to Defend My Rights.

1045

8. Exhibit H. - Grievance for Violation of Constitutional Rights; International
Covenant on Civil and Political Right(s).

1036

1046

1048

9. Exhibit I. - Affidavit for Rebuttal to the Court's Presumption; and "Report and
Recommendation".

1049

10. Exhibit J. - Court Order.

1050
1051

The Eleventh Circuit Court of Appeal did not know if it had jurisdiction and sent
the case back to the UNITED STATES DISTRICT COURT MIDDLE DISTRICT OF

1052

FLORIDA TAMPA DIVISION to JAMES S. MOODY, JR civil docket for case #: 8:20-cv-

1047

Page 36 of 40

1053

00574-JSM-CPT filed August 6, 2020; to proceed over the appeal that he (JAMES

1054

S. MOODY, JR) just denied in the civil case # 8:20-cv-574-T-30CPT.

1055

August 27, 2020 I filed a WRIT TO PROCEED IN DISTRICT COURT WITHOUT FEES

1056
1057

OR COST. Explaining that "I the plaintiff in this case is unable to pay the costs of
these proceedings because [not employed in the last five years from heart attack

1058

and kidney failure]; I have no banking or savings accounts.

1059

On September 16, 2020 the court filed a "REPORT AND RECOMMENDATION"

1060

stating "The filing, originally submitted to the Eleventh Circuit Court of Appeal,

1061

was forward to the Court, construed as a motion for leave to proceed on appeal

1062
1063

in forma pauperis, and referred to me for consideration. For the reason discussed
below, I respectfully recommend that Williams's construed motion be denied".

1064

Evidence that Christopher Tuite is in violation of 18 U.S.C. §1512 (c) just to deny

1065

me my rights when he altered my Writ;

1066

Whoever corruptly—(l)alters, destroys, mutilates, or conceals a record,

1067

document, or other object, or attempts to do so, with the intent to impair the

1068

object's integrity or availability for use in an official proceeding; or...

1069
1070

October 1, 2020 I filed "Affidavit of Objection to the "REPORT AND
RECOMMENDATION" With THE MOORISH NATIONAL REPUBLIC

1071

MOORISH DIVINE AND NATIONAL MOVEMENT OF THE WORLD

1072

Aboriginal and Indigenous Natural Peoples of Northwest Amexem / North

1073

America Affidavit of Financial Statement (Exercise of Constitution - Secured

1074

Right)".

1075

I received an Order filed October 5, 2020 from JAMES S. MOODY, JR stating "THIS

1076

CAUSE came on for consideration upon the Report and Recommendation

1077
1078

submitted by Magistrate Judge Christopher P. Tuite (Dkt. 12). The Court notes
that neither party filed written objections to the Report and Recommendation

1079

and the time for filing such objection has elapsed". THIS IS FALSE; I filed my

1080

"Affidavit of Objection to the "REPORT AND RECOMMENDATION" With

1081
1082

THE MOORISH NATIONAL REPUBLIC MOORISH DIVINE AND NATIONAL
MOVEMENT OF THE WORLD
Page 37 of 40

!

1083

Aboriginal and Indigenous Natural Peoples of Northwest Amexem / North

1084

America Affidavit of Financial Statement (Exercise of Constitution - Secured

1085

Right)" within the 14 day time limit certified mail number -7020 1290 0002 3261
4793.

1086
1087

REASONS FOR GRANTING THE PETITION

1088

I am a living Moor America National man. And this case is in Propria Persona,

1089

about me acquiring me personal property, Moorish estate from social security in

1090
1091

which I have a God giving right to do so. I signed the social security application
when I was a minor, 14 years old: 06-17-1982 which makes it void ab initio (void

1092

from the beginning). A child under the age of 18 is considered a minor and unable

1093

to sign a contract unless it is for essential items. You did not address this major

1094

issue. Taxes are voluntary. There is no law or contract that binds me to pay taxes.

1095

As you the court, are deemed to know the law. I have a right to rescind my

1096
1097

signature from social security, form SSA-521 Request for Withdrawal of
Application. I have a right to end fiduciary relationship with the IRS, form 56

1098

Notice Concerning Fiduciary Relationship. And any changes that are made are

1099

done on form SS-5 Social Security Administration Application for a social security

noo

card. Ms. Berryhill, Andrew Saul, or social security has no vested interest in my

noi
1102

estate. Ms. Berryhill is lying about me being forced to pay taxes. Under color of
law Ms. Berryhill is lying when she states "Unless specifically exempt by law,

1103

everyone working in the United States must pay social security taxes. I have never

H04

worked in or for the United States which is a federal corporation, 28 U.S. Code

nos

§ 3002- "United States: means—(A) a Federal corporation; (B) an agency,

H06
H07

department, commission, board, or other entity of the United States. Christopher
P. Tuite was asked "As a matter of public interest and to ensure I am dealing with

nos

a Legal and lawfully competent court of records per Article III and Article 1 section

H09

8 clauses 9 of the American Constitution. I rightfully demand to see Tuite's

mo
mi

Registration Statement Pursuant to the Foreign Agents Registration Act of 1938
OMB No. 1124-0001; an oath or affirmation of office on the public record to

1112

support and defend the Constitution for America Republic in regard to this

ni3

matter". Tuite's acquiescence of this demand is evidence of his color of law, as it

ni4

is declared, made known and substantiated in Stone v Powell 428 US. 465, 65 CT
Page 38 of 40

1115

3037 49 L. Ed. 2d 1067, that state courts like federal courts have a Constitutional

iii6
ni7

Obligation to safeguard personal liberties and uphold federal law to protect
people from encroachment and molestation of their preexisting Rights! Tuite

1118
1119

states that Williams failed to make a claim. Florida Jurisprudence §116 General
rules applicable to pleadings control in suits involving trusts or trustees. Ultimate

mo

facts on which the claim to relief is grounded must be alleged. Although a

1121
1122

complaint IS NOT NECESSARILY SUBJECT TO MOTION TO DISMISS MERELY
BECAUSE IT DOES NOT PRESENT A MODLE OF GOOD PLEADING, THE NESESSARY

1123

ELEMENTS OF THE CAUSE OF ACTOIN MUST BE SET FORTH. WHERE THE VALIDITY

1124
1125

OF THE INSTRUMENTS SOUGHT TO BE ENFORCED DEPENDS ON WHETHER THE
SIGNATURE HAD AUTHORITY SO TO SIGN, THE EXISTENCE OF SUCH AUTHORITY

1126

MUST BE ALLEGED AND PROVED. I am the grantor of the trust; I gave the

H27

consideration for the trust. I am the beneficiary of the trust. I have full authority

1128

to terminate this trust. [AFFIDAVIT OF OWNERSHIP FOR LORAYE BLACKEAGLE©

1129

1131

FOR CERTIFICATE OF LIVE BIRTH OF DARRYL-LORAYE: WILLIAMS STATE OF
FLORIDA STATE BOARD OF HEALTH BUREAU OF VITAL STATISTICS CERTIFICATE OF
LIVE BIRTH, BIRTH NUMBER 109-68-043434]. All trustees have been fired because

1132

there is No TRUST and they have dishonored their position and are trying to steal

1133

my Moorish estate.

H34
1135

Tuite has stated "to this threshold defect, Williams's Grievances Filing- which
echoes themes typically in "sovereign citizen" type pleading- is largely nonsensical

1136

and incoherent". Now Tuite is making up word under color of law to assassinate

1137

my character.

1130

1138

One cannot be Sovereign and a citizen at the same time this is a misnomer

1139

(a wrong or inaccurate name or term). You cannot be a king with supreme

1140

authority and a citizen under the Constitution and laws of the united States at the

1141

same time. It's like being a Free Slave, you can't be free and a slave at the same

1142
1143

time! Knowingly failure to disclose material information necessary to prevent
statements from being misleading or making representation despite knowledge

1144

that it has no reasonable basis in fact, is actionable as fraud under the law. I am

1145

not subject to any corporation. I have no contract with any federal corporation,
an agency, department, commission, board, or other entity of the United States.

1146

Page 39 of 40

1147

What law forces me, a live man to pay taxes? I have no capital gains or

1148
1149

investments, I'm not a corporation and I have never been operating in a corporate
capacity and investing, I do not have any return off investment. My pecuniary

1150

compensation was not taxable when I did work. People are not the subject of

1151
1152

commerce, and cannot be import goods, they do not full within the meaning
found upon the constitution, of all power given to congress to regulate

1153

commerce, and the prohibition of the states for imposing a duty on imported

1154

goods.

1155
H56

Merger Doctrine states- "doctrine of merger" refers to the fusing of legal title in
the event the same person becomes both the sole trustee and the sole

H57
H58

beneficiary of a trust. This will terminate the trust. The beneficiary owns the trust
property outright]. I never intended to have a trust with the United States

1159

Corporation. The trust is TERMINATED. Return all property to the beneficiary

H60
1161

immediately. I am not an undesirable, or a heathen. Magistrate Tuite, A. Saul, and
N. Berryhill took an Oath of Office to the Constitution of the united States of

H62

America in Honor and good standing. What Honor would you have by keeping my

H63
1164

private property? None! By not returning My Private Property you are thief in
Dishonor.
CONCLUSION

1165

1166

The petition for a writ of certiorari must be granted.

H67

Respectfully submitted,

Page 40 of 40

